P.O. Box 20541
Atlanta, GA 30320-2541
CREDIT CARD APPLICATION AND SOLICITATION DISCLOSURE

Interest Rates and Interest Charges
Visa Platinum Rewards
Annual Percentage
Rate (APR) for
Purchases
APR for Balance
Transfers
APR for Cash
Advances
Penalty APR and
When it Applies

9.75% to 13.75%, based on your creditworthiness
Your APR will vary with the market based on the Prime Rate
9.75% to 13.75%, based on your creditworthiness
This APR will vary with the market based on the Prime Rate
9.75% to 13.75%, based on your creditworthiness
This APR will vary with the market based on the Prime Rate
14.75% to 18.75%, based on your creditworthiness
This APR will vary with the market based on the Prime Rate
This APR may be applied to the entire balance on your account if you:
- Make a late payment

Paying Interest

Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau

How Long Will the Penalty APR Apply? If Your APRs are increased
for this reason, the Penalty APR will apply until you make at least six
(6) minimum payments by the payment due date as shown in your
monthly statement.
Your due date is at least 25 days after the close of each billing cycle.
We do not charge you interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest
on cash advances and balance transfers on the transaction date.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
None
Transaction Fees
$6.00
- Cash Advance
1.00% of each currency transaction in U.S. dollars
- Foreign
Transaction Fee
Penalty Fees
- Late Payment
Fee
- Over-the-Credit
Limit Fee
- Returned
Payment Fee

Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including
new purchases).”
Effective Date: The information about the costs of the card described in this disclosure is accurate as
of September 15, 2020. This information may have changed after that date. For more information
please contact us at 1-800-544-3328.
OTHER DISCLOSURES
Late Payment Fee Returned Payment Fee -

Statement Copy Fee Document Copy Fee Rush Fee Stop Payment Fee Payment Holiday Fee -

$25.00 or the amount of the required minimum payment, whichever is
less, if you are ten (10) or more days late in making a payment.
$25.00 or the amount of the required minimum payment, whichever is
less. Returned payment fees are assessed for both returned checks
and for returned auto transfer payments that are NSF on the due date.
$3.00
$6.00
$15.00 Weekday
$30.00 Saturday
$15.00
$0.00

